OIG Audit Report GR-30-09-001

Audit of Newport News Police Departments Equitable Sharing Program Activities Newport News, Virginia
Audit Report GR-30-09-001
July 2009
Office of the Inspector General


Executive Summary


The purpose of the Department of  Justice (DOJ) asset forfeiture program is to deter crime by depriving criminals  the profits and proceeds of illegal activities while enhancing the cooperation  between federal, state, and local law enforcement agencies. State and local law enforcement agencies that  participate in the seizure of property and funds may receive a portion of the  proceeds, or an equitable share of the forfeiture, to use for law enforcement  purposes.  
 We conducted an  audit of the Newport News Police Department’s participation in DOJ’s asset  forfeiture program during the agency’s fiscal years (FYs) 2007 and 2008. The audit found that the police department  generally complied with equitable sharing guidelines.  Specifically, the police department submitted  the federal sharing agreement and certification report on time, adequately  accounted for receipts, and used asset forfeiture monies for allowable  uses.  
During the audit period, however,  the police department commingled DOJ equitable sharing funds with other federal  and state forfeiture revenues, which resulted in it reporting inaccurate  receipts and expenditures on its certification forms.  The police department also did not inventory  all accountable property purchased with equitable sharing funds and furthermore  could not locate two laptop computers sampled during the audit that cost $3,674.  As a result, we developed 3 recommendations  for the Criminal Division.

Ensure that the Newport News  Police Department reconciles its FY 2007 and FY 2008 asset forfeiture receipts.
Ensure  that the Newport News Police Department records all accountable property  purchased with equitable sharing funds in its inventory.
Remedy $3,674 in unsupported expenditures, the price  of two missing laptop computers.




 




Return to OIG Home Page